                                                      NATIONAL SCIENCE FOUNDATiON
                                                            4201 WILSON BOULEVARD
                                                           ARLINGTON, VIRGINIA 22230




    1                       OFFICE OF
    1             .     INSPECTOR GENERAL

    ~                  MEMORANDUM
    ~                  Date:            November 6,1998
    1                  To:              File No. I98080020
        - -   -   -   _-From:                                                                           ----      -----   "   -


                       Via:
                       Re:


                       Background:
I




1                      An audit review of conference awards found indications of otential duplicate charging of travel
                       expenses by Dr.                  rofessor o I ) r                     the 1997 summe-
                       Conference trip




                                                                             , $200,50
                                                                    n conjunction with


                       Investigation:



                      C
                      We asked for travel vouchers and source documents for conference tr
                      from Dr.               ome institution and for the last 5 years from th
                                            ent us a total of six travel vouchers an
                      documents for one conference.

                      Both institutions sent us travel documents fdr one trip to a 1 9 9 E o n f e r e n c e , in Seattle,
                      WA.

                      In addition, th
                                               confirmed that
                                              Conference and received reimbursement.
                      the total amount they reimbursed and identified each travel expense.        e found no evidence of
                      duplicate travel reimbursements to Dr             for this trip.
Findings:

Although the initial audit review suggested potential fraudulent activity, we have found no
evidence of duplicate travel reimbursements to Dr. r             the one trip we have source
documents for the 19 9 7 m p .

No further review is warranted at this time. Case is closed.
